<html>
<title> - CONTINUING CHALLENGES FOR SMALL CONTRACTORS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





              CONTINUING CHALLENGES FOR SMALL CONTRACTORS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CONTRACTING AND WORKFORCE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 18, 2015

                               __________

     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
            Small Business Committee Document Number 114-030
              Available via the GPO Website: www.fdsys.gov
              
              
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-629                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                          MIKE BOST, Illinois
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
            Stephen Denis, Deputy Staff Director for Policy
            Jan Oliver, Deputy Staff Director for Operation
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Richard Hanna...............................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Ms. Anne Crossman, Head Revolutionary, Completed Systems, Oakton, 
  VA, testifying on behalf of Women Impacting Public Policy......     4
Mr. Edward T. DeLisle, Partner and Co-Chair, Federal Contracting 
  Group, Cohen Seglias Pallas Greenhall & Furman PC, 
  Philadelphia, PA, testifying on behalf of the Associated 
  General Contractors of America.................................     5
Mr. Michael D. Janeway, President and CEO, APG Technologies, LLC, 
  Sterling, VA...................................................     7
Ms. Karen Ward, President and CEO, WESSGRP, Fredericksburg, VA, 
  testifying on behalf of the U.S. Women's Chamber of Commerce...     8

                                APPENDIX

Prepared Statements:
    Ms. Anne Crossman, Head Revolutionary, Completed Systems, 
      Oakton, VA, testifying on behalf of Women Impacting Public 
      Policy.....................................................    19
    Mr. Edward T. DeLisle, Partner and Co-Chair, Federal 
      Contracting Group, Cohen Seglias Pallas Greenhall & Furman 
      PC, Philadelphia, PA, testifying on behalf of the 
      Associated General Contractors of America..................    24
    Mr. Michael D. Janeway, President and CEO, APG Technologies, 
      LLC, Sterling, VA..........................................    34
    Ms. Karen Ward, President and CEO, WESSGRP, Fredericksburg, 
      VA, testifying on behalf of the U.S. Women's Chamber of 
      Commerce...................................................    40
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.
 
              CONTINUING CHALLENGES FOR SMALL CONTRACTORS

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

                  House of Representatives,
               Committee on Small Business,
         Subcommittee on Contracting and Workforce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Richard Hanna 
[chairman of the subcommittee] presiding.
    Present: Representatives Hanna, Gibson, Velazquez, and 
Lawrence.
    Chairman HANNA. Thank you all for being here. We will call 
this meeting to order.
    There is an old adage in business that you cannot manage 
what you do not measure. The very active tracking often drives 
behavior. However, today, we are here to talk about what 
happens when measurements are distorted or ignored? In the 
realm of federal contracting, it usually means small business 
suffers. For example, when you look at small business goals, 
the SBA grades results. However, what SBA reports is not what 
we told it to measure. Congress created a goal of 23 percent of 
prime contracts to small businesses each year, and the SBA 
reports that it exceeded that goal for the last 2 years. 
Unfortunately, the truth is that the federal government 
excludes nearly 20 percent of its contracts before it figures 
out whether or not it met its goals. Kind of strange, is it 
not?
    Due to the way SBA counts the exclusions, some agencies are 
not required to do much for small businesses. Agencies, like 
the Department of Transportation, report that over 45 percent 
of their contracts went to small businesses, but in reality, it 
was only 13 percent because DOT excludes 72 percent of its 
contracts as unsuitable for awards to small businesses. The 
General Service Administration, an agency that has procurement 
as its mission, reported that 40 percent of contracts went to 
small businesses, but the truth is only 17 percent went to 
small business firms because the GSA thinks that 44 percent of 
its contracts count. This fuzzy math costs small businesses 
around 11 billion bucks a year.
    Likewise, when it comes to subcontracting, the Small 
Business Act requires that large prime contractor businesses 
must negotiate goals for using small subcontractors. However, 
the last time a company suffered a penalty from this, if you 
can believe it, was 1982. Indeed, SBA lowered the 
subcontracting goal again last year but agencies are still 
missing the goal. The Subcontracting Achievement Report does 
not even provide dollars, although this information has been 
required since the 1970s. Many large contractors do not even 
bother submitting reports about their subcontracting 
activities. All of this sends a message that while Congress may 
want small businesses to thrive and succeed, the Executive 
branch has not followed the law or measured the results. What 
we measure and the time we recognize the contributions small 
businesses both as prime and subcontractors make to the 
economy, they increase competition, increase innovation, create 
jobs, and save taxpayers' dollars.
    As this Subcommittee considers the issues surrounding small 
businesses and federal contracting, we want to learn today how 
we can ensure we are using the right metrics and getting 
complete data. If we succeed at that goal, we will help small 
businesses compete, create jobs, and save taxpayers money.
    I want to thank our witnesses for participating today, 
which will help us achieve those ends.
    Now, I yield to Ranking Member Velazquez, for her opening 
remarks.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. It is my pleasure 
to again be filling in for Mr. Takai.
    In fiscal year 2014, the federal government spent more than 
$440 billion on the purchase of goods and services netted for 
its day-to-day operations. As such, the U.S. government remains 
a consistent and reliable client, which attracts small 
businesses looking to enter the federal marketplace by becoming 
either prime contractors or subcontractors. We have seen some 
success in ensuring that small businesses receive their fair 
share of these contracting dollars.
    Last year, small primes received over $90 billion, 
amounting for almost 25 percent of contracting dollars. By this 
measure, the government has once again met its small business 
contracting goal. However, when taking a closer look at the 
data, not all is as it appears. It seems that a lack of 
transparency in the reporting of these numbers is skewing the 
results. For example, billions of dollars continue to be 
excluded from the Small Business Goaling Reports. In fiscal 
year 2014, $80 billion, nearly 20 percent, was deemed not 
eligible for small businesses, and as a result, not included in 
the base of calculating the small business goal.
    While some of these contracts have been set aside for other 
groups, there are those that argue that small businesses are 
incapable of performing some of these contracts. This is just 
not the case. The capabilities of small businesses continue to 
grow, and we have seen many instances in which small businesses 
were awarded these contracts even without the use of set-aside 
procedures. Additionally, there is no statutory language that 
exempts these contracts from being included in the calculation 
of the goals.
    Unfortunately, the lack of transparency does not end there. 
At an earlier hearing, we heard allegations that one agency has 
been underreporting its contracting dollars by $6 to $10 
billion for the past 5 years. Also, we continue to see large 
companies among those listed as receiving small business 
contracting dollars. SBA cannot continue to claim that 23 
percent of prime contracting dollars have been awarded to small 
businesses if the data being used to arrive at that conclusion 
is incomplete and inaccurate.
    However, prime contracting is only one part of the equation 
to becoming successful in the federal marketplace. Before 
becoming prime contractors, many small businesses first enter 
the marketplace as subcontractors, yet we continually hear how 
difficult it has become for firms to get subcontracts as prime 
contractors are doing more of the work themselves.
    Our supply chain needs a robust and varied source of 
subcontractors. Not only do they allow for more specialized 
businesses, but subcontracting allows for the benefit of these 
contracts to flow further into communities, creating more jobs 
and increasing economic development. For these reason and many 
more, we need to make sure that prime contractors are fully 
utilizing small businesses as subcontractors to the maximum 
extent possible.
    You have heard us say time and time again that a small 
business contract creates a win-win situation for both the 
business itself and the federal government. Competition is 
good, and that is one of the fundamental principles of our 
system. I hope that today's hearing will allow us to get some 
insight as to how we can create more of these win-win 
situations and ensure that small businesses are getting their 
fair share of federal contracts.
    I want to thank all of the witnesses for being here today, 
and I yield back the balance of my time.
    Mr. Chairman, I just would like to share with the members 
of the panel that I am filling in for Mr. Takai, who is the 
ranking on this subcommittee, but he is absent, and so I am 
here making this opening statement, but I have to go to my 
other hearing of the Financial Services Committee, where 
chairwoman of the SEC is testifying, and I have legislation 
that is very important, and I would like to ask her some 
questions, so I will have to excuse myself.
    Chairman HANNA. Thank you.
    Ms. VELAZQUEZ. Thank you.
    Chairman HANNA. Do you have something to say? Go ahead, 
please.
    Ms. VELAZQUEZ. It is my pleasure to introduce Ms. Karen 
Ward. Ms. Ward is the president of Ward ENG Support Services, 
an economically disadvantaged, women-owned business located in 
Leesburg, Virginia. The company specializes in system 
engineering, cyber security, and information assurance, as well 
as program management. Ms. Ward has a Master of Science in 
Software Engineering and is a doctoral candidate of 
Engineering. Ms. Ward is also here testifying on behalf of the 
U.S. Women's Chamber of Commerce, an organization that 
represents 500,000 members, three-quarters of whom are small 
business owners and federal contractors. Welcome, and thank you 
for being here.
    Chairman HANNA. Thank you.
    Our first witness today is Ms. Anne Crossman, who is the 
Head Revolutionary with Completed Systems in Oakton, Virginia. 
Completed Systems is a software development Ms. Crossman 
founded in 1996. She is testifying on behalf of Women Impacting 
Public Policy. Thank you for being here.
    Our second witness is Mr. Edward DeLisle, partner and co-
chair of the Federal Contracting Group at Cohen Seglias Pallas 
Greenhall and Furman--a lot of people--in Philadelphia, 
Pennsylvania, where he consults clients in all aspects of small 
business procurement. He is testifying on behalf of the 
Association of General Contractors of America.
    Our third witness is Michael Janeway. Mr. Janeway is the 
founding member and president of APG Technologies, LLC, a 
service-disabled, veteran-owned small business headquartered in 
Sterling, Virginia.
    Thank you all for being here.
    Ms. Crossman, you may begin.
    You know how the lights work.
    Ms. CROSSMAN. I am working on it.
    Chairman HANNA. You have 5 minutes and the light will go on 
and that will tell you when you have--that is a 1 minute 
warning, but we want to hear what you have to say, so you may 
begin. And stay relaxed.

  STATEMENTS OF ANNE CROSSMAN, HEAD REVOLUTIONARY, COMPLETED 
   SYSTEMS; EDWARD T. DELISLE, PARTNER AND CO-CHAIR, FEDERAL 
CONTRACTING GROUP, COHEN SEGLIAS PALLAS GREENHALL & FURMAN PC; 
 MICHAEL D. JANEWAY, PRESIDENT AND CEO, APG TECHNOLOGIES, LLC; 
             KAREN WARD, PRESIDENT AND CEO, WESSGRP

                   STATEMENT OF ANNE CROSSMAN

    Ms. CROSSMAN. Thank you very much. Good morning, Chair 
Hanna and distinguished members of the Subcommittee. My name is 
Anne Crossman. I am the head revolutionary at the Completed 
Systems, a women-owned small business based in Leesburg, 
Virginia. Our company is dedicated to completing information 
technology projects that others have given up on. I am also 
president of Vertical Jobs, a company that provides experienced 
role players to law enforcement and government agencies. I am 
here today representing Women Impacting Public Policy, where I 
serve on its Leadership Advisory Council. WIPP plays a key role 
in developing women-owned businesses and its successful federal 
government contractors through its Give Me 5 and ChallengeHER 
programs.
    On a personal note, clarity of teaming relationships and 
the length of time between an RFP and an award, are continuing 
challenges. Thankfully, under the Committee's leadership, the 
Congress has enacted much needed changes for small contractors. 
While the federal government has yet to reach its 5 percent 
goal of prime contracts awarded to women, the size of the WOSB 
procurement program has tripled since 2011. In 2011, WIPP 
testified before this Subcommittee on subcontracting issues. 
Since that time, the Committee has made a number of 
improvements that we applaud, including allowing women-owned 
small businesses to better partner with one another on federal 
contracts. In addition, the Committee's efforts to increase 
accountability for agencies to meet their subcontracting goals 
and incorporation of subcontracting goals for DoD are much 
appreciated. In reviewing our past testimony before this 
Committee on barriers facing women business owners in the 
federal market, we identified two continuing challenges, 
subcontracting plan issues, and data transparency. Many of the 
problems faced by subcontractors are symptoms of the underlying 
issue that the subcontractors have no real relationship with 
the federal government.
    In 2011, we raised several questions about subcontracting 
plans. How are they reviewed prior to award? How are they 
enforced? Should subcontractors have access to the plans? WIPP 
members tell us that many of these questions have not yet been 
addressed. We continue to believe that prime should adhere to 
an ``if you list us, use us'' policy.
    With respect to data transparency, GAO has found issues 
with the collection and availability of subcontracting data. It 
seems to us that using four systems to report disparate data is 
inefficient.
    Data issues, however, are not limited to only 
subcontracting plans. The annual scorecard should be accurate 
given the roles these reports play in encouraging agencies to 
contract with small businesses. We offer three suggestions. 
First, the data reported in the scorecard needs to be accurate. 
The SBA OIG found widespread misreporting by agencies. Second, 
the scorecard should measure the entirety of federal spending. 
Exclusions from the score card significantly change goal 
achievement progress.
    Third, reporting the number of firms winning contracts, not 
just the total dollar amount would enhance the scorecard. While 
the amount awarded to small businesses is increasing, there are 
fewer firms participating in these contracts.
    In conclusion, women entrepreneurs consider the federal 
marketplace a key opportunity to grow their businesses. For 
many, subcontracting is a staple of their federal business. 
Ensuring that the rules governing federal contracting are 
accurate and fair is of paramount importance to their success.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions that you may have.
    Chairman HANNA. Thank you.
    Mr. DeLisle?

                 STATEMENT OF EDWARD T. DELISLE

    Mr. DELISLE. Yes. Thank you, Chairman Hanna, for inviting 
me to speak before the Committee today about a number of very 
important issues that are confronting small business today. 
What I am going to do is stress two points during my oral 
testimony this morning. The first pertains to transparency in 
federal small business contracting, and the second pertains to 
the change order and the claims process that small business 
construction contractors in the federal marketplace are having 
a more and more difficult time navigating based upon how that 
process or those processes are being administered by the 
federal government, because you see, the difficult part of 
being a small contractor does not end with the procurement 
process, the solicitation process. It continues after project 
award. And so I will speak about some of those issues as well.
    With respect to transparency, the issue is, how well is the 
federal government providing access to opportunities for small 
business? And are these opportunities placing small businesses 
in a position to succeed and thrive? In order to answer those 
critical questions, there has to be an understanding as to 
where contracting opportunities are presenting themselves for 
small business as part of the contracting continuum, which 
there are many layers in the construction industry. Prime 
contractor, subcontractor, and various different levels. Where 
are subcontractors being provided those opportunities, and what 
percentage of federal government contracts are, in fact, they 
getting?
    Well, that is where transparency in the reporting issue all 
come into play, and this Committee has played a leading role in 
attempting to increase transparency and generate the data 
necessary to answer the questions that I just posed a few 
moments ago. And the scorecards which have been mentioned are a 
good first step in determining exactly how small businesses 
benefitting from the programs that do exist currently with the 
federal government. AGC thanks the Committee for its efforts up 
until this point and asks for the Committee's help in seeing 
another important initiative come to fruition.
    On December 26, 2013, the President signed the National 
Defense Authorization Act of 2014, and section 1614 of the Act 
calls for reporting and counting of lower tired small business 
subcontractors towards the fulfillment of small business 
contracting goals. Under the old system, only small businesses 
at the first tier or subcontracting level are reported and 
counted towards obtaining small business goals for any given 
contract and, in fact, we are still operating under that old 
system now. Under the new system, the idea is to provide a more 
in-depth analysis and understanding of how and how many small 
businesses are benefitting from any given contract. Under the 
old system, you do not get that.
    Why have we not seen the new law go into effect? Well, it 
because of the rulemaking process. The SBA and FARC Council are 
still in the rulemaking process. Under the law when it was 
initiated, when it was signed, they had 18 months to complete 
the rulemaking process. We are not there yet. We are 23 months 
out. And while we have a proposed rule from the SBA to 
implement the new law, we are just not there yet, which is 
affecting the ability to understand even how small business is 
being impacted all through the contracting continuum. So from 
AGC's standpoint, we would urge the Committee to push the SBA 
and FARC Council to complete the rulemaking processes so that 
this important initiative can be put into effect.
    Now, with respect to change orders and claims, once a small 
business contractor gets through the initial process of 
obtaining a contract, it does not end there. Changes happen on 
federal contracts all the time. Government needs change, 
conditions from a construction contractor's standpoint in the 
field may change, and work becomes more expensive, and 
additional time may be needed to complete whatever work might 
be required under a given contract.
    Small businesses can adapt and adjust to changes like that. 
However, the processes for dealing with changes need to be 
fair, and the process needs to be timely. Unfortunately, many 
times it is unfair and untimely, and there is no better example 
than the VA's project in Aurora, Colorado, about which I have a 
lot of experience. I had a client on that particular project 
who had an $18 million renovation job on an existing facility, 
and it cost $32 million to complete. The change order process 
never took place, forced this contractor to submit claims, 
prolonged the process, and but for luck and circumstance, my 
client would have been out of business. And there are many 
small businesses that are in exactly that same boat.
    We, at AGC, encourage this Committee to investigate issues 
like those, the change order and claims process, and AGC is 
committed to working with the Committee as part of any 
investigative process that it deems appropriate.
    Chairman HANNA. Thank you.
    Mr. Janeway?

                STATEMENT OF MICHAEL D. JANEWAY

    Mr. JANEWAY. Good morning, Chairman Hanna and the members 
of the Committee. I would like to thank you for inviting me to 
testify today to discuss the continuing challenges facing small 
contractors, and specifically, how the federal government has 
not met its subcontracting goal in 5 years.
    My name is Mike Janeway, and I am the founding member and 
president and CEO of a small business called APG Technologies, 
LLC, located in Potomac Falls, Virginia. My expertise in this 
matter is as a private business owner, a board committee member 
of several professional associations, and a retired Air Force 
lieutenant colonel with defense acquisition experience on large 
ACAT 1 programs.
    I founded APG Technologies in March 2008, as a service-
disabled, veteran-owned small business, with a goal of 
providing high value ROI data management designs and solutions 
to the Department of Defense and various intelligence agencies. 
We have about 30 employees located in multiple states where we 
have successfully delivered programs used in the War on Terror. 
We maintain an excellent reputation and have grown slow but 
steady, and are known as a niche provider of high-value, secure 
data management solutions.
    Since our deliverables are typically a component of a large 
overall development, most of our revenue comes from being a 
subcontractor. The last 3 or 4 years have been extremely 
challenging, especially for small businesses. We have seen the 
impacts of sequestration, delays in acquisition cycles, 
contracts canceled, short duration purchase orders for 4 to 6 
weeks at a time, contracts combined into large purchase 
agreements, turmoil in our large partners as they merge and 
spinoff business units, and an acquisition with poor to 
nonexistent communications and an overriding focus on low price 
awards. The results of this have driven many small businesses 
out of business. And while I do not have the numbers, I had a 
senior SBA executive tell me at a recent event they have seen 
large and dramatic number drops in the number of small business 
supporting federal.
    Adding to all this is the talent flight we are starting to 
see from employees who leave federal for commercial. In the 
words of a former employee, ``It is just too unstable, and I do 
not see a future in federal.'' While this may seem overly dark, 
when you are in a small business and you make your living off 
subcontracts, it seems that way at times because you are at the 
bottom of a somewhat unstable and even dark chain, it seems.
    The government requires federal contractors to submit a 
small business subcontracting plan that outlines how they will 
meet the subcontracting business goals. Since the goals are 
administrative rather than statutory, there is a lot of 
flexibility in execution, and most of the time the goals are 
not met. Too often we see subcontracting plans written to 
adjust proposal goals with little to no follow-through after 
the prime contract is awarded. With no enforcement by the 
federal government to hold contractors accountable, the 
subcontracting plan seldom matches reality and goals are seldom 
met.
    APG Technologies has experienced this where we entered into 
a team agreement in good faith with a large defense integrator. 
We took engineering talent off billable gigs to write the 
solutions and proposals, and then were not awarded the contract 
afterwards for some convenient reason. That is not an uncommon 
story with a lot of small companies out there. Setting 
statutory subcontracting goals to be followed by all federal 
agencies are the key to establishing a degree of stability for 
small businesses. Without these measures, the federal 
government will continue to fail in meetings its small business 
subcontracting goals. I believe the solutions should be 
statutory, and government contracting officers need the 
authority and ability to enforce them. Subcontracting plans 
should no longer just be words on a paper; it should be an 
enforceable and executable management plan to address the 
statutory requirement that reflects the government's desire for 
a healthy and vibrant small business community.
    Mr. Chairman, thank you for the opportunity. I will be glad 
to answer any questions you have.
    Chairman HANNA. Thank you.
    Ms. Ward?

                    STATEMENT OF KAREN WARD

    Ms. WARD. Chairman Hanna, Ranking Member Velazquez, members 
of the Committee, thank you for this opportunity to provide 
this testimony. I am Karen Ward, president and CEO of WESSGRP, 
testifying today on behalf of the U.S. Women's Chamber of 
Commerce.
    Access to federal contracts is vital for the continued 
growth and vitality of American small businesses. Yet, in 2014, 
there were 36,000 fewer small business government suppliers 
than there were in 2008. And between 2014 and 2015, small 
business awards decreased 20 billion. In this environment, 
decline in federal spending and decline in government 
suppliers, it is undoubtedly more important to ensure 
transparency in contracting and that the mandatory goal of 
maximum practical opportunity for small business concerns is 
being met government-wide.
    Prior to 2008, annual small business procurement reports on 
federal procurement provided more detailed, important 
information than they do today. But in 2008, these reports were 
stripped down to nothing more than an aggregated list of total 
amounts spent by agency. The current SBA goaling and federal 
acquisition reports are the antithesis of transparency. I ask 
that Congress act to require the SBA to restore the goaling and 
federal procurement report format to include the in-depth data 
and analysis as was present prior to 2008.
    Inappropriate use of grandfathering is causing billions of 
dollars in awards to large businesses to be reported as part of 
small business goal achievement as federal agencies attribute 
awards to small businesses. Even when the business, as acquired 
by a large firm, is no longer qualifying for small business 
goaling.
    federal regulations require firms that qualify as small at 
the time of its initial offer may be considered small business 
for goaling purpose throughout the life of the contract. 
However, important exceptions apply. Within 30 days of a proved 
contract novation, a contractor must certify its small business 
size to the procuring agency. And if the firm is no longer 
small, the agency can no longer count the options or orders 
issued pursuit to the contract towards its small business 
goals. This is similarly true in the case of a merger or 
acquisition. There have been many instances where my firm has 
been forced to unjustly compete during RFPs against companies 
that were classified as a small originally, but if reclassified 
today, would no longer meet the small business size 
requirements.
    I call upon Congress to require SBA to include details in 
annual procurement reports detailing the contract actions and 
dollars attributed to small business goaling with firms that 
are no longer small. Each year, the Small Business 
Administration carves out billions of dollars in federal 
contracts to be excluded from small business goaling. Most of 
these exclusions are without merit. The practice should 
immediately be terminated.
    As a small business and lead for a small company prior to 
starting my own firm, I have seen and demonstrated that small 
companies are capable of performing work overseas. There can be 
no justification for claiming that American small businesses 
have limited chance to compete for awards pertaining to 
contracts performing outside the U.S., foreign sales, or 
American embassies. I ask Congress to act to require the SBA 
and these unwarranted exclusions from small business goaling 
and require that any exclusions be fully reported and justified 
annually.
    The federal government is still not meeting its 
subcontracting goals, holding business prime contracts 
accountable for the subcontracting plans can help the 
government meet these goals. As a subcontract, I have seen 
issues associated with the ability to perform the work within 
the rates defined by large primes. Large primes will list the 
small business participating on the subcontractor plan and then 
provide payment rates for subcontractors that are not 
executable. Consequently, due to the inability for the small 
business contractors to fill these positions, the large primes 
ultimately fill those positions with their own personnel.
    I ask Congress to require procurement center 
representatives to review all subcontracting plans, assuring 
they are complaint with the maximum practical opportunity for 
small business participation and empower the PCRs to deliver 
the acceptance of the prime contractor's subcontracting plans 
should these plans not meet these requirements.
    Thank you for this opportunity to provide my testimony, and 
thank you for your efforts on behalf of the small business 
federal suppliers.
    Chairman HANNA. Thank you, Ms. Ward.
    Oh, we are going to have Colonel Gibson ask the first 
question.
    Mr. GIBSON. Thanks, Mr. Chairman. And thanks for putting 
together this hearing. It has been very informative. I 
appreciate the testimony of the panelists here this morning 
with regard to issues that we are having on transparency, 
accurate reporting, and what might be done in terms of tweaking 
what we have on the books now, maybe tightening up some of the 
rulemaking timelines, or at least communicating our concern. I 
am hearing all that.
    And then also, Ms. Ward, I appreciate these comments as far 
as small businesses that may not be small anymore. And I am 
curious to know, just as a clarification, you had mentioned 
inappropriate use of grandfathering. Is that what you meant? Or 
can you give an example of that just for my understanding?
    Ms. WARD. So what I mean by that is there are so many times 
where there is a small business opportunity, and when you 
actually go after that opportunity, because they have been 
grandfathered in on an IDIQ, they are able to pursue that 
contract as a small. But in reality, they are no longer a small 
contracting firm. And so when you have companies like myself, 
which are truly small contracting firms, it is extremely hard 
to compete against those firms. And on top of that, you have 
got these numbers which show how small businesses have a number 
of opportunities by percentage of what is allocated for federal 
contracting. And in reality, because the fact that these 
companies are no longer small or getting these awards, it is 
showing that those companies specifically have--the federal 
agency is meeting those small numbers, percentages, but in 
reality, they are really not. And so the number of 
opportunities for someone like myself and my company and others 
like me within the U.S. Women's Chamber of Commerce are 
decreasing.
    Mr. GIBSON. That helps. Thank you. And thank you for your 
strong leadership.
    Earlier in the testimony, and I think it was our expert 
from AGC, was suggesting recommendations to changes for the 
change order and claims process. I am curious to maybe put a 
finer point on that, any recommendations you have. And then 
also for the panel, anything they want to add on that.
    Mr. DELISLE. Excuse me. Yes, thank you.
    Specifically with respect to the claims process, I can tell 
you that I think that an alternative dispute resolution process 
would be extremely helpful. Any sort of early detection and 
process that would allow the parties, require the parties, to 
sit down and work through these issues before you get involved 
in costly litigation would be most beneficial. And I think that 
is definitely something to consider as you consider some 
alternatives moving forward because the process that we are 
dealing with now is just simply not working.
    Mr. GIBSON. And it would seem that that would make--I mean, 
candidly, that would make it harder because the smaller 
businesses have a harder time competing in terms of how much 
cost that would be in litigation, so it is a way of 
outflanking, if you will, small business.
    Mr. DELISLE. Yes.
    Mr. GIBSON. That is a fair point.
    Any other panelist want to address that, or address 
anything on that score?
    Well, thank you. Again, this has been very helpful in my 
read up before this and then hearing you today, so it is 
meaningful for us when you come here and you provide that 
testimony. So Chairman, thanks for your leadership on this, and 
I will yield back.
    Chairman HANNA. Thank you.
    I want to ask you something. I pretty well get all this. I 
have been in construction, myself, for about 30 years, and what 
do you think individually of the exclusion that these different 
governmental agencies make which automatically kick out large 
sums of money simply because I guess the premise is that small 
businesses are not capable of--and you mentioned this in your 
statement, Ms. Ward--of doing work that apparently is either 
too large or too difficult or too complicated. Somehow they 
arrive at these numbers and exclude, which is why we are here 
today, because when you do that, you automatically reduce the 
total dollars available. I mean, does anybody have an opinion 
about how they arrive at that? The whole process seems so 
arbitrary and capricious, and because it is rulemaking and 
rules and not clearly defined obligations, legal obligations, 
it seems like these agencies take advantage of that to pretty 
much make up their own rules as they go along.
    We have some time here. I would just be interested in 
anybody's insights on that.
    Mr. JANEWAY. Mr. Chairman, we have worked at a lot of 
different agencies within defense and intelligence and in 
general I would say most of them handle it in a somewhat 
uniform manner. They do a sources sought release where they try 
to find out what companies are out there that can bid on a 
particular scope of work. The challenge we find in those 
sources sought are hearing about them. Sometimes they are not 
always widely disseminated, even though they are supposed to be 
on CB, Federal Commerce Business Daily or the electronic 
version of it. CBO, I think it is. So they do release them. We 
do not always see them. Sometimes they are overly complex and 
complicated in how you have to respond to them. They almost 
become a proposal in themselves in the format and the volumes 
of material that comes back. So it is a challenge to respond to 
those in the timeline you are looking for and with the 
complexity or detail that they are looking at.
    Chairman HANNA. So somewhat of like a war of attrition the 
process creates by itself.
    Mr. JANEWAY. Exactly. Exactly. I mean, you find most 
businesses, small companies out there going after--I hate to 
use this term but it really is a reality.
    Chairman HANNA. Can you describe, you have taken people off 
of the workload that was productive, put them on something that 
was potentially beneficial but it fell apart?
    Mr. JANEWAY. Yeah, there are very few small companies out 
there, even large companies now, that have people that are not 
on billable engagements. If they are not working, they are 
definitely working proposals. So it is actually lost revenue 
when you do that. Exactly.
    Chairman HANNA. Ms. Ward?
    Ms. WARD. I would agree with Mr. Janeway. That is the issue 
I have as well, and a lot of us small businesses, is that even 
with myself, I work on multiple different contracts, and there 
is really no one that is not billable within my organization at 
this particular point in time, so that I can remain competitive 
and keep the rates where I need to keep them so I can 
subcontract off of larger companies. But in the prior work that 
I have done working for other organizations, we were a small 
company and we were able to successfully do work in foreign 
countries and be able to succeed in providing those 
capabilities that they were looking for. And so I really, truly 
believe they need to open up those capabilities and give small 
businesses a chance to respond and go after those.
    Chairman HANNA. And why do you think they do not do that?
    Ms. WARD. You know, I think it comes down to the risks that 
they see. Right? I mean, typically, you are looking for the low 
risk, the ability to procure it and have an organization that 
they feel can----
    Chairman HANNA. What you are really saying is the fact that 
you are a small business is almost evidence to them that there 
is risk associated for some bureaucrat someplace. It is easy 
for him to hire somebody big and proven than it is to take a 
chance on you?
    Ms. WARD. Yes.
    Chairman HANNA. Which would be, to me, an indication that 
we actually need laws rather than rules to help them facilitate 
and eliminate that anxiety, if you will.
    Ms. WARD. Correct.
    Chairman HANNA. Does that make sense to Ms. Grossman?
    Ms. CROSSMAN. I think maybe I might come at it from a 
slightly different perspective, but from a purely analytical 
perspective, if people are not including dollars, that just 
changes the total amount of money available. So I think making 
people who say it is not small business, this cannot be done by 
a small business, I think they should have to include that 
revenue in the bigger number and make more things available on 
work that is not part of that available to small businesses.
    Chairman HANNA. Do you agree, Mr. DeLisle?
    Mr. DELISLE. I think it is challenging. I can tell you that 
from my personal experience, I do a lot of overseas work, and I 
specifically am dealing with an awful lot of construction 
contracts that were built in Afghanistan right now. And I will 
tell you that the Corps of Engineers, Department of Defense has 
eaten large companies alive in places like that. It is very 
difficult to successfully perform overseas, and in that 
particular environment, it was extremely challenging. Lakeshore 
TolTest is one known example of a company that simply did not 
make it. Very large company that performed a lot of work in 
Afghanistan and simply could not make it. So I can understand 
it from the government's perspective. Taking into consideration 
the risk involved in performing overseas, I can.
    I would say, however, that there are certainly 
opportunities for small businesses abroad, perhaps more at the 
subcontracting level, and that that issue does, in fact, need 
to be looked at more closely in terms of allowing 
participation.
    Chairman HANNA. So you would say then that if they kept 
better track of and allowed you to have transparency, which was 
one of your original points----
    Mr. DELISLE. That is right.
    Chairman HANNA.--that you could actually have a better 
measurement of the small businesses that are used, and you 
might even feel better about the whole process because you 
would know that they actually are being used, and whether or 
not they are successful. And if there are requirements, then 
you would know how to fit your company into that space.
    Mr. DELISLE. And that is exactly the point. Yes. Yes, Mr. 
Chairman.
    Ms. WARD. The agency that excludes the highest percentage 
of its dollars from its base does not do overseas contracting. 
So it is not all overseas--we are all talking about overseas 
dollars, but the Department of Transportation excludes all but 
28 percent of its spend. That is not overseas contracting.
    Chairman HANNA. But they all exclude substantial amounts. I 
mean, you cannot take that away.
    Ms. WARD. Well, of the nine agencies that exclude the 
highest percentage of dollars all seem to get As on their 
scorecard from SBA.
    Chairman HANNA. Which, we would argue, they should not get.
    Mrs. Lawrence? Thank you.
    Mrs. LAWRENCE. Thank you.
    Ms. Crossman and Ms. Ward, while equally successful in 
terms of results, women and minority business owners report 
investing more time and money in seeking federal procurement 
opportunities and submit significantly more than the average 
small business contractor does. What major challenges do you 
see women and minority-owned business facing in order to win 
these contracts?
    Ms. Ward? Do you need a moment? I can go to Ms. Crossman.
    Ms. WARD. Yes, I do. Please.
    Mrs. LAWRENCE. Ms. Crossman?
    Ms. CROSSMAN. I think that the new rulings for women-owned 
small businesses, giving them, the contracting officers the 
ability to sole source to women-owned small businesses has been 
a great thing for all women-owned businesses. I think the 
interesting part of this is all going to be how and when and if 
the contracting officers will begin to use the new rulings. It 
is new, and contracting officers sometimes do not like change, 
so I think encouraging them to feel comfortable setting aside a 
sole source for an EDWSB. You know, as we have been looking at 
the sources sought that are coming out, and as we talked with 
contracting officers, we have been trying to spread the word, 
and we bring around the information provided by women impacting 
public policy and try to connect the contracting officers. So 
it is an education.
    Mrs. LAWRENCE. So if I follow you, it is a tremendous 
amount of discretion that is given to the contracting officer, 
and so therefore, they can or cannot use this tool of sole 
sourcing?
    Ms. CROSSMAN. Well, they have the opportunity to use it.
    Mrs. LAWRENCE. Okay.
    Ms. CROSSMAN. But choosing to use it because it is new, 
right, not a lot of people have used it so far. It is new. It 
is a risk.
    Mrs. LAWRENCE. What is the risk?
    Ms. CROSSMAN. Because it is a new ruling. How are people 
supposed to use this new ruling? The 8(a) sole source has been 
in play forever. The women-owned small business is new. So I 
think it is just sort of educating the contracting officers and 
spending time convincing them this is a good thing for them to 
do. And it is a plus for them and a plus for women-owned small 
businesses.
    Mrs. LAWRENCE. That is good to hear.
    Ms. Ward, have you put your thoughts together?
    Ms. WARD. Thank you for giving me the time to think through 
it.
    So I hear what you are saying, and I would agree. One of 
the issues though in talking to the contracting officers is 
that they have not been given policy that allows them to 
actually execute direct awards for EDWSB. And I have heard that 
through a number of them. I have participated in a lot of 
industry-type U.S. Women's Chamber of Commerce meetings where 
they bring a lot of large industry and agencies into the forum, 
and when we go around and we talk to them, they specifically 
say we do not have the rulings and the policy yet to put into 
place. I also deal with other contracting offices and small 
business advocates within the agencies and they say the same 
thing; that until they have policy within the DoD or within the 
federal government and the federal space, they cannot execute 
it because they have to have that policy which drives the 
actions that they take.
    Additionally, one of the issues that I see is that there 
are a number of organizations--this may not be the right 
forum--but there is a number of organizations that classify 
themselves in EDWSB and they do not have the certifications 
associated with it. My company, for the little bit of money 
that I spend, I go to a third party because I do want to 
justify the fact that, yes, if I am classifying myself as an 
EDWSB, I am actually a EDWSB.
    Mrs. LAWRENCE. Exactly.
    Ms. WARD. And that is one of the issues that I am seeing. 
Because there is more than once I have bumped into other 
companies and had discussions with them, and they say they are 
an EDWSB, but in reality, they are not.
    Mrs. LAWRENCE. I really appreciate your openness on that.
    Mr. Chair, I just had another question for Mr. DeLisle. In 
2014, the federal government awarded $90 billion to small 
businesses. Despite spending such a considerable amount, a 
recent GAO report found that there was no single system 
currently in place that is designed to link small business 
contractors to prime contracts. What tools are necessary to 
help small businesses get those subcontracts? And second, how 
do we get the prime contractors to invest more resources in 
subcontracting contracts, opportunities?
    Mr. DELISLE. I can tell you that based upon my own 
experience, how it is done many times now. There are 
organizations, the National 8(a) Association is one of them, 
and I do a lot of work for the National 8(a) Association. And 
they will host meet and greets on a fairly regular basis trying 
to put large prime contractors together with potential 
subcontracting partners, both for large contracts that may be 
solicited by the government, as well as set-aside contracts 
where a teaming arrangement could take place, small business 
hiring large business. That is one way that it is done. I host 
them myself. As far as what government can do, it is a great 
question because right now there is a disconnect between the 
primes, or the large businesses I should say, and the small 
businesses, linking together, finding one another, to work 
together. And that is the biggest problem. I do not know if you 
can necessary issue legislation to force some sort of a system, 
maybe you could. Maybe you could require some sort of a meeting 
of some type at some point during the solicitation process and 
have the large businesses document the fact that, yes, well, we 
hosted a meet and greet of some kind, this is who we invited, 
and this is who attended. You could do that if you wanted to. 
Perhaps that is one solution that you may have. As it stands 
right now, companies are on their own. I have plenty of small 
businesses that I represent that actively solicit agencies that 
they are interested in working for, and that is what they do 
and they ask questions. Okay, well, who do you use on your big 
contracts? Who are they? Who is the contact person? That is how 
it is done oftentimes now.
    Mrs. LAWRENCE. Thank you so much. I yield back my time. 
Thank you, Mr. Chairman.
    Chairman HANNA. Ms. Velazquez?
    Oh, I want to take a minute and congratulate you on your 
Sandy----
    Ms. VELAZQUEZ. Yes.
    Chairman HANNA.--bill being passed Monday; right?
    Ms. VELAZQUEZ. Monday. So it is going to the president for 
his signature.
    Chairman HANNA. Good for you. Congratulations.
    Ms. VELAZQUEZ. Yes. Thank you. Yes.
    Mr. DeLisle, you stated in your testimony that by removing 
the exclusions to the small business goal, agencies will look 
to the construction industry to make up the difference in their 
goals What can we do to ensure that agencies are not relying on 
one industry for their goals and are looking to expand small 
business participation throughout all sectors?
    Mr. DELISLE. The construction industry, I think simply by 
its nature and the fact that you have so many different levels 
of contracting that typically take place. It ends up being a 
place, which is not a bad thing, where many, many smaller 
contractors can perform and succeed. The problem is that I do 
not believe, AGC does not believe and is concerned that other 
industries--take manufacturing for one example--will not 
shoulder a fair amount of the subcontracting load, if you will, 
and participate at the same levels. I think what you need is 
going back to the reporting and transparency issues that we 
have discussed earlier, we need more information. There has to 
be an industry-by-industry review of what is happening and an 
understanding from the bottom, or from the top down to the 
bottom, who is participating. And that gets back to my earlier 
testimony where under the National Defense Authorization Act of 
2014, if we can move that along, I think you will get much of 
that information and then be able to make a determination as to 
what the appropriate levels are and where the participation 
level should be.
    Ms. VELAZQUEZ. Okay, thank you.
    Ms. Ward, you noted in your testimony that in a merger, 
acquisition, or other contract innovation, small businesses are 
required to recertify their size status. Yet, we have continued 
to see dollars that are counted towards the small business goal 
going to large businesses as a result of such acquisitions. Why 
do you think this is the case? Are businesses gaming the system 
and not recertifying when they are supposed to? Or is the 
information just not being reported correctly?
    Ms. WARD. The reason I think that is the case is that if I 
get awarded an IDIQ, in the time I am awarded that IDIQ, I am a 
small business, but over time I am very successful and I am no 
longer a small business, but I am still on that IDIQ. I qualify 
as a small business on that IDIQ. So when I go after an 
opportunity--and some of these IDIQs are not just 5 years, they 
are 10 year IDIQs. And so when I go after an opportunity, I go 
after an opportunity as a small, but in reality, I am a 
multimillion dollar company. And I am way past the small 
thresholds. So what happens is companies like myself who are 
small and go on teams that are smaller, have a harder time in 
competing against those opportunities.
    So if the federal government was required to basically set 
them up as if they are on longer a small, and that is not part 
of their small thresholds, then we would see a reality of how 
many contractors that are small contractors who are actually 
getting a percentage of the dollars allocated to the federal 
contracting.
    Ms. VELAZQUEZ. I am just thinking in terms of legislative 
fixes. But I will come back to you.
    Ms. Crossman, prior to award, large prime contractors are 
required to submit subcontracting plans for review. If a 
contracting officer finds them to be inadequate, he or she can 
decide to not award the contract to the business. In your 
experience, how often are contracts not awarded due to 
inadequate subcontracting plans?
    Ms. CROSSMAN. From personal experience, I have not 
experienced that but we are also pretty particular about who we 
team with. But I do know of people where it has happened. It 
has not been my experience though.
    Ms. VELAZQUEZ. So do you think that if this happened more 
often, would contractors be inclined to submit higher 
subcontracting goals?
    Ms. CROSSMAN. Yes.
    Ms. VELAZQUEZ. And Mr. Janeway, in FY2014, it was reported 
that small businesses received 33 percent of subcontracting 
dollars, yet we know that this number has been overinflated in 
the past due to inaccurate reporting. Based on your own 
experience, what about the process allowed this kind of 
misinformation to be reported?
    Mr. JANEWAY. Ma'am, I am not sure I have enough detail on 
how the government actually reports that. All I can say is I 
see numbers that seem to be kind of spread all over the 
spectrum. You will see an association says that they did not 
meet their goals and then you will see something in the paper 
says an agency has declared success and they did meet their 
goals. So I do not have that insight.
    Ms. VELAZQUEZ. Ms. Ward, do you think that the federal 
agency, in this case SBA, has the authority to address the 
issue of small businesses growing into a big businesses and 
still applying or bidding for a contract that is intended to go 
to small businesses? How can we address that issue?
    Ms. WARD. So just to restate what you are asking, 
essentially what you are asking is that if a small contractor 
wins an IDIQ and they are small at the time that they won it--
--
    Ms. VELAZQUEZ. Right.
    Ms. WARD.--and essentially, as the IDIQ moves forward and 
they are no longer classified as a small, how does the SBA 
ensure that that large company, even though they are on an 
IDIQ, can still go after that award?
    Ms. VELAZQUEZ. Mm-hmm.
    Ms. WARD. Unfortunately, in today's contracting world, that 
is exactly what they are given the ability to do. What I would 
hope is that if you could look at the numbers and show that 
those companies that are winning those awards are not small, it 
would actually show the reality of whether or not they are 
meeting the small business contracting goals. And if they are 
not meeting those goals, they would take hopefully other 
avenues to provide opportunities to the small companies.
    Ms. VELAZQUEZ. Thank you.
    Chairman HANNA. Thank you.
    It seems that the ability to be arbitrary for the 
bureaucracy to protect itself, to move towards larger companies 
is almost inherent in the process. Would you agree with that? 
That contracting officers would choose to use less latitude by 
hiring larger companies simply because it is easier. It defends 
their positions and the likelihood of failure is reduced. So 
would it be safe to say then that the rulemaking process at the 
end of the day cannot necessarily, unless they are hard and 
fast rules which you asked for, Ms. Ward, which are actually 
laws, and it is tracked differently, and more transparency, if 
we do not do that, we cannot fix this problem. Is that too far 
a reach on my part? Anyone?
    Mr. JANEWAY. I would agree with you, sir. I think there is 
almost an inherent culture within acquisitions of risk 
aversion. Having been there, done that, you know, I remember us 
taking a risk where we had to, or we tried to buy down risk. 
But the culture today is very risk averse. It has always kind 
of been that way with contracting officers. I think it is the 
way they are trained to watch exactly how they do and who makes 
what decisions. But many times I think the entire, within the 
program management or execution side of it has also become risk 
averse. So it is much easier to hand a contract to a large 
defense integrator than break it off amongst----
    Chairman HANNA. How big a factor is that? I mean, you see 
them effectively lower their goals by separating larger 
companies from small companies, so that is kind of an overt 
way, but what is the more subjective guess you might have about 
how that affects the ultimate awarding to small businesses?
    Mr. JANEWAY. I do not know that I could actually put a 
number on it.
    Chairman HANNA. It would be hard to do.
    Mr. JANEWAY. Yeah.
    Chairman HANNA. But you think it is a lot?
    Mr. JANEWAY. Yeah. Yes, I do.
    Chairman HANNA. Does everybody sort of agree, or not?
    Mr. DELISLE. Yes, Chairman. I think one thing that may play 
into this also is the fact that you have a government 
contracting workforce that had been getting older, and you had 
many that retired and left. And you have younger contracting 
officers, perhaps becoming contracting officers a little bit 
sooner than they otherwise should, who are much less willing to 
take a risk than somebody who may have been more experienced 
and older, and thereby, willing, to take that risk. I mean, 
that is certainly something that I have seen at least some of 
as part of dealing with very young contracting officers who you 
think to yourself, ``Well, gee, they are really making these 
decisions.'' Well, it is far easier for someone that fits that 
description to stick with the company that you know, or go with 
the larger company because there is less risk involved. There 
is less possibility that somebody is going to look at me that I 
made a mistake. So that could be playing into some of this as 
well.
    Chairman HANNA. And all of that demands more transparency, 
so at least those larger companies are required to also go to 
work with smaller businesses.
    Mr. DELISLE. That is right.
    Chairman HANNA. If there are on further questions? No?
    I want to thank you all for being here today. Given the 
hundreds of billions in federal contract dollars at stake each 
year, ensuring that small businesses have the opportunity to 
compote for federal prime and subcontracts is important. The 
goals are supposed to help us accomplish this, but currently, 
they are being used to paint a rosy picture rather than to 
capture reality, which we have heard today. We also need to 
make sure that subcontracting opportunities are real, and that 
subcontractors with a desire and a capacity are able to 
transition to become prime contractors.
    I look forward to working with my colleagues on these 
issues, and I ask for unanimous consent that each member have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    This hearing is adjourned. And thank you again.
    [Whereupon, at 11:00 a.m., the Subcommittee was adjourned.]
    
    
    
    
    
    
    
    
    
    
    
    
    
                            A P P E N D I X



     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Good morning. Chair Hanna, Ranking Member Takai and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to testify.

    My name is Anne Crossman. I am the Head Revolutionary at 
Completed Systems, a women-owned small business, based in 
Oakton, Virginia, dedicated to completing information 
technology projects that others have given up on. I am also 
President of Vertical Jobs, a company that provides experienced 
role players to law enforcement and government agencies.

    I am here today representing Women Impacting Public Policy 
(WIPP) where I serve on its Leadership Advisory Council. WIPP 
is a national nonpartisan public policy organization advocating 
on behalf of its coalition of 4.7 million business women 
including 78 business organizations. WIPP plays a key role in 
developing women-owned businesses into successful federal 
government contractors through its Give Me 5 and ChallengeHER 
programs. Despite WIPP's efforts, access to federal contracts 
continues to be a challenge for women-owned businesses.

    In my experience, two issues for small contractors are 
clarity of teaming relationships and length of time between 
Request for Proposal (RFP) response and contract award date. 
Many of the small business set-asides in today's environment 
require teaming and working with competitors as partners. 
Clarifying each team member's part and following through to 
ensure the subcontracting plan has been met takes time and 
focus. To a small business, time really is money and having to 
pay resources to be available not knowing when or if you will 
be performing the work is costly.

    With regard to these issues, I know I am not alone. 
Contracting challenges confront WIPP members on a daily basis 
and act as barriers to women business owners succeeding in the 
federal market. WIPP's procurement committee continually 
updates women federal contractors on the changing landscape of 
procurement through communications and webinars.

    Under your leadership, the Congress has enacted much needed 
changes, increasing access to federal contracts for all small 
businesses. Women entrepreneurs continue to struggle to access 
federal contracts at both the prime and subcontracting levels. 
While the federal government is yet to reach its 5% goal of 
prime contracts awarded to women, progress is being made. Since 
its inception in 2011, the size of the WOSB Procurement Program 
has tripled. We are heartened by Administrator Maria Contreras-
Sweet's commitment to meeting this goal in FY16.

    In October 2011, WIPP testified before this Subcommittee in 
a hearing entitled, ``Subpar Subcontracting: Challenges for 
Small Business Contractors'' on the issues small businesses 
face with respect to subcontracting.\1\ Since that time, the 
Committee has made a number of improvements that we applaud, 
including allowing women-owned small businesses to better 
partner with one another on federal contracts.
---------------------------------------------------------------------------
    \1\ Bisceglie, Jennifer. Statement to the U.S. House, Small 
Business Committee, ``Subpar Subcontracting: Challenges for Small 
Businesses Contractors,'' Hearing, October 6, 2011. Available at: 
http://smallbusiness.house.gov/uploadedfiles/
bisceglie<INF>--</INF>testimony.pdf

    In the 2011 hearing, WIPP testified on confusion 
surrounding subcontracting requirements. The National Defense 
Authorization Act (NDAA) of 2013 addressed many of these 
fundamental problems by requiring the Small Business 
Administration (SBA) to clarify subcontracting requirements, 
including the amount that must be performed by both prime and 
subcontractor vendors. The SBA's proposed rule would update 
performance and subcontracting requirements for small business 
and socioeconomic program set-aside contracts.\2\ We are 
hopeful that the final rule implementing these changes will be 
released soon.
---------------------------------------------------------------------------
    \2\ Small Business Government Contracting and National Defense 
Authorization Act of 2013 Amendments, 79 Fed. Reg. 77955 (December 29, 
2014).

    More recently, WIPP supports an effort to increase 
accountability for agencies to meet their subcontracting goals 
as part of H.R. 1481, the Small Contractors Improve Competition 
Act of 2015, ultimately included in the FY16 NDAA. 
Incorporating subcontracting goals in Department of Defense 
procurement responsibilities is a positive step toward 
---------------------------------------------------------------------------
improving the subcontracting environment for small businesses.

    In reviewing past testimony before this Committee on 
barriers facing women business owners in the federal market, we 
identified two continuing challenges. These are concerns with 
the subcontracting environment and issues with data collection 
and transparency. I will use my remaining time to focus on 
these two challenges.

    Continuing Challenge #1: Subcontracting

    Not having a relationship with the federal government is 
one of the most significant problems facing subcontractors. 
Without that relationship, subs are wholly dependent on the 
prime to remain in the federal contracting system. We believe 
subcontractors would benefit from participating in the broader 
contracting process. Many of the problems faced by 
subcontractors are symptoms of the underlying issue that 
subcontractors have no real relationship with the federal 
government.

    When WIPP testified before this Subcommittee in 2011, we 
raised several questions about subcontracting plans: How are 
subcontracting plans being reviewed prior to award? How are 
subcontracting plans enforced? Should subcontractors have 
access to the plans?

    WIPP members tell us that many of these questions have not 
yet been addressed. Four years later, we still do not know the 
true amount subcontracted to small businesses or whether 
subcontracting plans are actively enforced. We suggest that the 
federal government should require disclosure of the portion of 
the subcontracting plan to the subcontractor that is listed. At 
WIPP, we call this recommendation a ``List Us, Use Us'' policy, 
and we believe ensuring that subcontractors are not used solely 
to win awards but to do the work will benefit women 
entrepreneurs.

    The government should require prime contractors to share 
this information with the subcontractor upon award. We 
understand the complexity of asking federal agencies to monitor 
compliance with the subcontracting plan, but it is necessary to 
ensure that prime contractors are acting in good faith when 
they amend subcontracting agreements.

    WIPP has previously testified on the lack of information in 
the reporting of subcontracting plans. Since that time, the 
Government Accountability Office (GAO) has authored a study, 
``Linking Small Business Subcontractors to Prime Contracts Is 
Not Feasible Using Current Systems.'' \3\ This 2014 study 
highlighted the same concerns that WIPP expressed in its 2011 
testimony. The report found that linking subcontracting plans 
to prime contracts was ``especially difficult'' because the 
subcontracting plans do not specify to which contract they 
belong. GAO surveyed the four reporting systems--the Electronic 
Subcontract Reporting System, USASpending.gov, Federal 
Procurement Data System and Federal Funding Accountability and 
Transparency Act Subaward Reporting System and concluded that 
not one of the four had fully comprehensive data. In addition, 
GAO found that less than ten percent of contracts reported all 
of the required data.\4\
---------------------------------------------------------------------------
    \3\ Government Accountability Office, Linking Small Business 
Subcontractors to Prime Contracts Not Feasible Using Current Systems, 
December 2014.
    \4\ Government Accountability Office, DATA TRANSPARENCY: Oversight 
Needed to Address Underreporting and Inconsistencies on Federal Award 
Website, August 1, 2014.

    WIPP supports the effort to make this data reliable and 
uniformly accessible. In addition, it seems to us, that using 
four systems to report disparate data is an inefficient and 
unnecessary method to gather and display subcontracting data. 
WIPP believes two pieces of information should be reported and 
easily accessible: subcontracting opportunities available for a 
given contract and the extent to which those opportunities are 
---------------------------------------------------------------------------
actually being performed by a small business.

    Continuing Challenge #2: Transparency in Federal 
Contracting Data

    Data issues, however, are not limited to only 
subcontracting plans. WIPP believes that annual scorecards must 
be transparent and accurate, given the role these reports play 
in encouraging agencies to contract with small businesses, 
including women-owned small businesses. The annual scorecards, 
however, could be improved in three ways to better reflect 
small business contracting achievement government-wide.

    First, the data reported in the scorecards needs improved 
accuracy. The SBA Office of Inspector General (SBA OIG) has 
cited accuracy in data reporting as a significant challenge for 
the agency.\5\ In a 2015 report, the SBA OIG found ``widespread 
misreporting by procuring agencies...[and] many contract awards 
that were reported as having gone to small firms have actually 
been substantially performed by larger companies.'' \6\ WIPP 
believes that accurate and timely data reporting will aid SBA 
in establishing Agency goals and ultimately ensure that small 
businesses, especially subcontractors, receive their share of 
contracting awards.
---------------------------------------------------------------------------
    \5\ Small Business Administration - Office of Inspector General, 
Report on the Most Serious Management and Performance Challenges Facing 
the Small Business Administration in Fiscal Year 2016, October 15, 
2015.
    \6\ Id at 6.

    Second, these scorecards should measure the entirety of 
federal spending, Exclusions from the scorecard significantly 
change goal achievement progress. While SBA's achievement of 
meeting the 23% was impressive, it would only have been 19.2% 
with the incorporation of all spending.\7\ SBA's recent 
decision to include international contracts in these numbers is 
a good start.
---------------------------------------------------------------------------
    \7\ Small Business Administration - Office of Advocacy, Evaluation 
of the Small Business Procurement Goals Established in Section 15(g) of 
the Small Business Act, June, 2014 at 13.

    Third, SBA scorecards would be enhanced by also measuring 
the number of firms winning contracts. Currently, the 
scorecards only measure dollars awarded to small businesses. 
While the amount awarded to small businesses is increasing, 
there are fewer firms participating in these contracts.\8\ As a 
result, contracting dollars are now concentrated in a smaller 
number of firms. WIPP was pleased to see this addresses in the 
FY16 NDAA.
---------------------------------------------------------------------------
    \8\ Burton, Robert. Statement to the U.S. House Small Business 
Committee, ``Contracting and Industrial Base II: Bundling, Goaling, and 
the Office of Hearings and Appeals.'' Hearing, March 27, 2015. 
Available at: http://smallbusiness.house.gov/calendar/
eventsingle.aspx?EventID=397854#sthash.hPCLkrG8.dpuf

    In conclusion, women entrepreneurs consider the federal 
marketplace a key opportunity to grow their businesses. With 
more than ten million women business owners nationwide, 
competition for government opportunities among women innovators 
and entrepreneurs remains strong. For many, subcontracting is a 
staple of women business owners in the federal market. Ensuring 
that the rules and systems governing both prime and 
subcontractors are accurate and fair is of paramount 
importance. This Committee has always acted to support these 
pillars of WIPP's procurement policy, and we know you will 
---------------------------------------------------------------------------
continue to do so.

    Thank you for the opportunity to testify and I would be 
happy to answer any questions that you may have.


     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      Testimony of Michael Janeway


                       President and CEO

                     APG Technologies, LLC

House Small Business Committee Subcommittee on Contracting and 
                       Workforce Hearing:

        ``Continuing Challenges for Small Contractors''

                       November 18, 2015
    Good morning. I would like to thank Chairman Hanna, Ranking 
Member Takai and the members of the Subcommittee on Contracting 
and Workforce for inviting me to testify today to discuss the 
continuing challenges facing small contractors and specifically 
how the federal government has not met its subcontracting goal 
in five years, even though they have continued to lower the 
goal each year.

    My name is Mike Janeway, and I am the founding member, and 
President and CEO of a small business, APG Technologies, LLC 
headquartered in Potomac Falls, Virginia. My expertise is as a 
private business owner and as a retired U.S. Air Force Lt 
Colonel with experience working in the defense acquisition 
community as a program manager and program director of large 
command and control systems for both U.S. war fighters and our 
Middle East allies.

    I founded APG Technologies in March 2008 as a Service 
Disabled Veteran Owned Small Business (SDVOSB) with the goal of 
providing high value ROI engineered designs and implementation 
to the Department of Defense and the various intelligence 
agencies of the U.S. federal government. We have approximately 
30 employees spread across operating locations in the 
Washington DC area; Dayton, Ohio; Denver, Colorado; Colorado 
Springs, Colorado; Dallas, Texas; and at times various 
locations in California, Florida, Kentucky, and New York. Our 
company has successfully delivered and supported a variety of 
programs and missions used in the war on terror.

    Having stayed true to our mission of providing high value 
data management solutions we have grown slowly, yet we maintain 
an excellent reputation in our market. Since o ur engineering 
deliverables typically center around components of much larger 
developments, most of our work is awarded as a subcontractor to 
much larger prime contractors. Our experience includes teaming 
with many of the large companies that typically bid on defense 
and intelligence contracts, including many of their operating 
locations across the U.S.

    Federal procurement is not just of singular importance to 
many small businesses--small-business participation is crucial 
to a healthy and competitive federal procurement process. Small 
businesses provide high-quality goods and services to federal-
contracting agencies and infuse the federal procurement system 
with much-needed competition. In turn, the federal government 
invests in the most-dynamic and innovative sector of the U.S. 
economy.

    More than 30 years ago, Congress set a goal of having a 
certain portion of all federal contracting dollars go to small 
businesses and established sub-goals for small businesses owned 
by women, socially and economically disadvantaged individuals 
and service-disabled veterans, and for small businesses in 
Historically Underutilized Business Zones (HubZones). The 
current government-wide goal for small businesses' share of 
contracting dollars is 23 percent. However, every year since 
2006, the federal government has missed the 23 percent small 
business goal and all but one of the sub-goals.

    Small firms accounted for 63 percent of the net new jobs 
created between 1993 and mid-2013 (or 14.3 million of the 22.9 
million net new jobs). Small firms in the 20-499 employee 
category led job creation. This unrivaled success has been 
achieved with less than adequate governmental support, however. 
Although small businesses comprise 99.7 percent of all employer 
firms in the U.S., employ half of all private sector employees, 
and are responsible for more than 50 percent of the country's 
private, non-farm gross domestic product, they only receive a 
fraction of federal contracting dollars and a tiny sliver of 
federal research and development investment. In fact, in fiscal 
year 2012, only 22.3 percent of all contracting dollars went to 
small business. When small businesses are excluded from federal 
contracts, the federal government, American taxpayers and the 
nation's economy lose out.

    Subcontracting is an important avenue for small businesses 
to gain entry to the federal marketplace when they lack the 
capacity to compete at the prime contractor level and can also 
serve as a stepping stone to receiving work as a prime 
contractor. According to past NSBA survey data of those small 
firms that provide goods and services to the federal 
government, 48 percent said they have performed subcontracting 
duties for the federal government. Among businesses that do 
perform subcontracting for the federal government, 
approximately 66 percent said that at most 20 percent of their 
firms' revenue is based on federal subcontracting.

    Subcontracting plans, where large business prime 
contractors explain how they will tap the talents of small 
businesses to help them in performing the contract are the key 
tool agencies have to facilitate opportunities for small 
businesses as subcontractors. While statutory and 
administrative goals are intended to provide small businesses 
with significant subcontracting opportunities, a lack of 
attention, consequences, and systems continues to plague the 
program.

    Unlike the small-business prime contract goal, the small-
business subcontract goal is administratively rather than 
statutorily determined. Like small-business prime contracting, 
federal agencies set goals for the percentage of subcontracts 
that will be awarded by federal contractors to small 
businesses. To achieve these goals, the government requires 
many federal contractors to submit small-business 
subcontracting plans that outline how small businesses will 
participate in contract performance.

    Too often we see subcontracting plans written only to 
address proposal goals with little to no follow through after 
the prime contract is awarded. With no enforcement by the 
federal government to hold prime contractors accountable 
subcontracting plans seldom match reality and goals are never 
meet. The impact to a small business can be significant. APG 
Technologies and hundreds of others companies have experienced 
this same scenario where you enter into a teaming agreement in 
good faith, provide engineering and administrative talent at 
your own expense to develop a solution, hire recruiters to get 
a jump on recruiting the best talent, and may even pay an 
option to lease a larger office only to see the prime 
contractor find some reason not to award the subcontract or to 
delay staffing.

    This allows the U.S. Small Business Administration (SBA) to 
adjust the subcontracting goal based on what it perceives to be 
the real opportunities for subcontracting. However, while SBA 
has steadily decreased the subcontracting goals from 36 percent 
to 34 percent over the last five years, subcontracting 
achievements have fallen from 35 percent to 33 percent. Each 
time SBA decrease the goals, agencies manage to subcontract 
less with small businesses. This results in real losses to 
small businesses.

    In the Small Business Procurement Scorecard--which measures 
each agency's progress in meeting their small business and 
socio-economic prime contracting and subcontracting goals and 
provide accurate and transparent contracting data--published 
annually by the SBA, the agency reported the following 
subcontracting goals and achievement for FY 2013:


 
------------------------------------------------------------------------
                                    Subcontracting      Subcontracting
     Small Business Concern              Goal             Achievement
------------------------------------------------------------------------
Small Business                    36.00%              34.00%
Women Owned Small Business        5.00%               6.60%
 (WOSB)
Small Disadvantaged Business      5.00%               6.70%
 (SDB)
Service Disabled Veteran Owned    3.00%               1.70%
 Small
Business (SDVOSB)
HUBZone                           3.00%               1.20%
------------------------------------------------------------------------


    In fiscal year (FY) 2013, small businesses received $86.7 
billion in subcontracts, which is just about $5 billion less 
than they received in prime contracts. If federal agencies had 
met the then-goal of 36 percent, subcontract would have 
accounted for more dollars to small business than prime 
contracts. The fact that the goal keeps decreasing indicates 
that less and less is being provided to small subcontractors.

    APG Technologies' experience is that prime contractors will 
comply with requirements the federal government frequently 
measures and enforces. The opposite is also true in that prime 
contractors pay little attention to requirements not measured, 
validated, and enforced. For example, APG Technologies has been 
a subcontractor on a large contract for a military service 
intelligence agency where we run the data management, 
integration, and architecture teams. The agency goal for SDVOSB 
awards is three percent but they rarely achieve half that 
annual goal and have shown little interest in enforcement on a 
contract with scope we could easily fulfill. Despite only 
achieving half their subcontract goal of three percent the 
prime contractor repeatedly recruits and staffs their own 
employees rather than award us new work.

    Recently, this same contract was re-competed and awarded to 
a new company which added us as a subcontractor. Under this new 
contract, from the same agency, for the same scope, some of the 
small-business goals were not listed and the prime contractor's 
response has been to cut APG Technologies' hours which has 
resulted in staff reductions.

    Prime contractors on any contract with an estimated 
contract value exceeding $650,000 that has subcontract 
possibilities are required to submit a subcontracting plan to 
the government that assigns both percentage and dollar value 
goals to these opportunities. The government monitors the 
prime's utilization of small businesses by reviewing this plan 
and reported achievements against the plan. The government's 
review of performance against the plans is further complicated 
by antiquated supporting technology that still has contractors 
submitting plans and reports to the contracting officer in 
paper format in some cases.

    This further shows that the SBA's subcontracting goals are 
arbitrary. In an attempt to improve this process, the National 
Defense Authorization Act (NDAA) for FY 2013 required that:

    Not later than 180 days after the date of the enactment of 
this part, the Administrator of the [SBA] shall review and 
revise the Goaling Guidelines for the Small Business Preference 
Programs for Prime and Subcontract Federal Procurement Goals 
and Achievements to the extent necessary to ensure that ... 
agency subcontracting goals are established on the basis of 
realistically achievable improvements to levels of 
subcontracting rather than on the basis of an average of 
previous years' subcontracting performance.

    However, nearly three years after the President signed the 
NDAA, SBA has not issued new subcontracting goal guidelines. 
Indeed, instead of implementing goals that reflect ``achievable 
improvements'' the SBA has decreased the subcontracting goal 
since 2013. This is not the solution.

    According to past NSBA survey data, nearly 79 percent of 
the small businesses surveyed supported the idea that the 
federal government should provide greater oversight and 
protection for federal subcontractors. Therefore, I was 
especially pleased to see that the Senate Small Business and 
Entrepreneurship Committee passed both the Small Business 
Subcontracting Transparency Act of 2015 (S. 2138) and the Small 
Contractors Improve Competition Act of 2015 (S. 2139), which 
examines the difficulties in dealing with the federal 
procurement process, and addresses small business challenges in 
level the playing field and ensure fair competition in 
government contracting.

    I also appreciate all of the work by House Small Business 
Committee Chairman Steve Chabot on his Small Contractors 
Improve Competition Act of 2015 (H.R. 1481), which would amend 
the Small Business Act and the FY 2013 NDAA, and is intended to 
increase the number of awards made to small businesses by 
addressing several perceived obstacles that inhibit 
opportunities to increase small-business participation in 
federal contracting. Especially crucial was Sec. 102 that dealt 
with subcontracting goals.

    Currently, when considering whether senior agency 
executives are eligible for bonuses, agencies must look at 
whether they met the small-business prime contracting goals. 
However, agencies do not look at whether the agency is meeting 
its subcontracting goals. As a consequence, the percentage of 
subcontract dollars awarded to small businesses has been 
falling, and is down 2.5 percent since 2010. With 
subcontracting being an important entry point for federal 
contractors, this provision holds senior agency officials 
accountable for meeting all the goals. I applaud these small-
business contracting reforms being included into H.R. 1735, the 
National Defense Authorization Act for 2016 (NDAA) and look 
forward to President Barack Obama signing NDAA into law in the 
coming days.

    The solutions to these concerns should be statutory in law 
by requiring the SBA to return to the higher 36 percent goal, 
stop reducing subcontracting goals, and make the goals 
mandatory contract requirements for all federal acquisitions 
with procedures and penalties for failure. Administratively, 
the Federal Acquisition Regulation (FAR) should be changed to 
make and allow the following:

          1. Subcontracting plans should be contractually 
        binding, compliant with SBA goals, and enforced by the 
        federal contracting officers.

          2. Contract Officers should quarterly measure a 
        contractor's compliance with the subcontracting plan.

          3. Contracts Officers should be authorized to 
        penalize contracts not meeting their subcontracting 
        plan through payment withholds and other penalties.

    In short, the subcontracting plans should no longer just be 
words on paper to address a proposal requirement. It should be 
an executable management plan that is contractually binding 
under and which the prime contractor is measured and held 
accountable. The subcontracting plans requirements should be 
revised to increase small business subcontracting participation 
and enhance the electronic subcontracting reporting system to 
improve federal agency monitoring of prime contractor 
achievements against their subcontracting plans.

    As small businesses struggle to compete for federal 
contracts and subcontracts, I appreciate this subcommittee 
examining whether legislative changes could better protect and 
promote businesses such as mine.

    Mr. Chairman, thank you for the opportunity to provide you 
and your subcommittee with the insight of my company's 
experiences. If there is anything I can do to assist you or 
your subcommittee I am more than eager to serve.
                              Testimony of


                     Karen Ward, President and CEO


                                WESSGRP


                            on behalf of the


                    U.S. Women's Chamber of Commerce


               Before the House Small Business Committee


               Subcommittee on Contracting and Workforce


                            for the Hearing


            ``Continuing Challenges for Small Contractors''


              Wednesday, November 18, 2015, at 10:00 a.m.


                Rayburn House Office Building, Room 2360


    Chairman Hanna, Ranking Member Velazquez, members of the 
committee--thank you for this opportunity to provide testimony 
before the Subcommittee on Contracting and Workforce.

    I am Karen Ward, President and CEO of WESSGRP. I am 
testifying today on behalf of the U.S. Women's Chamber of 
Commerce. My firm, which is certified EDWOSB by the U.S. 
Women's Chamber of Commerce, provides system engineering, 
cyber-security, database administration, software engineering 
and program management support to the federal government and 
commercial markets.

    Access to federal contracts is vital for the continued 
growth and vitality of American small businesses, the people 
they employ and their communities. In today's environment of 
declining federal spending and declining government suppliers, 
it is doubly important to ensure transparency in contracting 
and that the mandatory goal of maximum practical opportunity 
for small business concerns \1\ is being met government wide 
through direct small business prime contracts and 
subcontracting with small business.
---------------------------------------------------------------------------
    \1\ See 15 U.S.C. 644Sec. 15(g)(1)(B): Achievement of Government 
Goals, http://goo.gl/Fq268c--Each agency shall have an annual goal that 
presents, for that agency, the maximum practicable opportunity for 
small business concerns, small business concerns owned and controlled 
by service-disabled veterans, qualified HUBZone small business 
concerns, small business concerns owned and controlled by socially and 
economically disadvantaged individuals, and small business concerns 
owned and controlled by women to participate in the performance of 
contracts let by such agency. The Small Business Administration and the 
Administrator for Federal Procurement Policy shall, when exercising 
their authority pursuant to paragraph (2), insure that the cumulative 
annual prime contract goals for all agencies meet or exceed the annual 
Governmentwide prime contract goal established by the President 
pursuant to this paragraph.

---------------------------------------------------------------------------
    Facts:

          <bullet> In FY2014 there were 36,000 fewer small 
        business government suppliers than there were in 
        FY2008.\2\
---------------------------------------------------------------------------
    \2\ See https://www.fpds.gov/, Unique Vendors Reports from FY 2008 
and FY 2014. The Federal Procurement Data System--Next Generation 
reports there were 144,857 unique small business vendors during FY 2008 
vs. 108,762 unique small business vendors during FY 2014.

          <bullet> Small business awards were $23.6B less in FY 
        2015 than they were in FY 2010--including a large 
---------------------------------------------------------------------------
        contraction of $20B between FY2014 and FY2015 alone.\3\

    \3\ See https://www.fpds.gov/, Small Business Goaling Reports

          <bullet> Annual SBA goaling reports or procurement 
        scorecards do not tell us how many new suppliers are 
        securing awards each year or how many suppliers are 
        lost or acquired. Nor do they report the acquisition 
---------------------------------------------------------------------------
        vehicle used or the amount of competition.

          <bullet> SBA goaling reports or procurement 
        scorecards tell us nothing about the details of 
        contracts and contractors by agency, buying center, 
        region or NAICS. They tell us nothing about the number 
        of small businesses receiving contracts by socio-
        economic category or the number of actions broken into 
        dollar size ranges.

          <bullet> And, SBA goaling reports or procurement 
        scorecards tell us nothing about the actions excluded 
        from small business goals.

    Annual Small Business and Federal Procurement Reports 
contain extremely limited information providing few insights 
into the details of how federal acquisitions and small business 
goals are being met.

          Many on this committee may not know--prior to 2008, 
        much of the informative data I just named as missing 
        from SBA reports was included in an annual Federal 
        Procurement Report.\4\ But, in January 2007, the Small 
        Business Administration announced a sweeping, gutting 
        change to the annual Small Business Procurement 
        Scorecard.\5\ This change, along with the development 
        of the Federal Procurement Data System--Next 
        Generation, rendered the small business and federal 
        procurement reports to be nothing more than a simple 
        list of aggregated spending numbers. The current SBA 
        goaling reports and federal acquisition reports are the 
        antithesis of transparency.

    \4\ FY 2007 Federal Procurement Report. Section 1: Total Federal 
Views - https://goo.gl/LBUPDQ, Section 2: Geographic Views - https://
goo.gl/acCBd4, Section 3: Agency Views - https://goo.gl/bmFktt.

    \5\ Letter from Fay Ott, Associate Administrator for Government 
Contracting and Business Development to the Directors of the Offices of 
Small and Disadvantaged Business Utilization, Re: Small Business 
Procurement Scorecard Guidance for Fiscal year 2008, 1/10/07. https://
www.sba.gov/sites/default/files/aboutsbaarticle/
goals<INF>--</INF>revised<INF>--</INF>guidelines.pdf

          I ask that Congress act to require the SBA to restore 
        the goaling and federal procurement report format to 
        include the in-depth data and analysis as was present 
---------------------------------------------------------------------------
        prior to FY2008.

    Inappropriate use of ``grandfathering'' is causing billions 
of dollars in awards to large businesses to be reported as part 
of small business goal achievement each year.

          Federal agencies may be incorrectly attributing 
        billions of dollars in awards annually as awards to 
        small business--even when the business has been 
        acquired by a large business and no longer qualifies 
        for small business goaling.

          13 C.F.R. 121.404(g)(1 and 2) states, a concern that 
        represents itself as a small business qualifies and 
        qualifies as small at the time of its initial 
        offer...(and) is considered to be a small business 
        through the life of the contract.

          However the following important exceptions apply:

          ``(1) Within 30 days of an approved contract 
        novation, a contractor must recertify its small 
        business size to the procuring agency, or inform the 
        procuring agency that it is other than small. If the 
        contractor is other than small, the agency can no 
        longer count the options or orders issued pursuant to 
        the contract, from that point forward, towards its 
        small business goals.''

          And, ``(2)(i) In the case of a merger or acquisition, 
        where contract novation is not required, the contractor 
        must, within 30 days of the transaction becoming final, 
        recertify its small business size status to the 
        procuring agency, or inform the procuring agency that 
        it is other than small. If the contractor is other than 
        small, the agency can no longer count the options or 
        orders issued pursuant to the contract, from that point 
        forward, towards its small business goals. The agency 
        and the contractor must immediately revise all 
        applicable Federal contract databases to reflect the 
        new size status.'' \6\
---------------------------------------------------------------------------
    \6\ See CFR Title 13: Business Credit and Assistance, Small 
Business Size Regulations, http://www.ecfr.gov/cgi-bin/text-
idx?SID=cb5092954b2d88cc6f0e0b5c902fb1c3&mc=true&node=se13.1.121<INF>--</INF>
1404&rgn=div8

          However, in 2014, SBA Administration Maria Contreras-
        Sweet testified before the House Small Business 
        Committee that, ``We have a rule in place that says 
        that once you get a contract with government, that you 
        are given five years. And so if a large company 
        acquires a small business, then it is grandfathered in 
        for a number of years.'' \7\ This statement clearly 
        contradicts the regulations--and the objectives of our 
        government.
---------------------------------------------------------------------------
    \7\ Testimony of Small Business Administrator Maria Contreras-
Sweet, U.S. House Committee on Small Business (Sept. 10, 2014), https:/
/goo.gl/nUXAMV.

          Additionally, the government reports regarding small 
        business contracting do not provide transparency as to 
        how many contracts awarded to small companies are truly 
        being performed by small companies over the lifecycle 
        of the contract and on IDIQs at award. There have been 
        many instances where RFPs my firm has competed with 
        companies classified as small but, if reclassified 
        today, would no longer meet the parameters that 
---------------------------------------------------------------------------
        classify the company as a small company.

          I call upon Congress to require the SBA to include 
        details in the annual goaling and procurement reports 
        about the contract actions and dollars attributed to 
        small business goaling with firms that are no longer 
        small.

    Exclusions to small business eligible actions rob small 
businesses of billions of dollars every year.

          Each year, the Small Business Administration carves 
        out billions of dollars in opportunities to be excluded 
        from small business goaling. Most of these exclusions 
        are without merit; the practice should be immediately 
        terminated. In FY2014, $73 billion of federal spending 
        was not included as part of the ``small business 
        eligible'' actions.\8\ Considering that, at a minimum, 
        23% of this spending should have been awarded to small 
        businesses--small businesses lost over $16 billion in 
        opportunities in FY2014 alone.

    \8\ Per https://www.usaspending.gov, the federal government spent 
$445.6B in contract actions. Per http://smallbusiness.data.gov/, the 
SBA attributed only $367.2B as small business eligible actions. The SBA 
excluded $78.4B in contract actions from small business eligible 
actions.

          For example, in FY2014 small businesses lost: $12.4B 
        from the Department of Defense, $2.5B from the 
        Department of State, $2B from GSA. A public report 
        prepared by the Department of the Army tells us, ``If 
        all the goaling exclusions were removed for FY14, 
        Army's base would grow by 15.37B and small business 
        dollars would grow by $.71B which would decrease (Army) 
---------------------------------------------------------------------------
        small business achievement by 5.50%.'' \9\

    \9\ The Impact of Small Business Exclusions on Army's FY14 
Performance, 4/13/15. http://www.sellingtoarmy.info/content/impact-
small-business-exclusions-army%E2%80%99s-fy14-performance

          In 2001, the General Accounting Office directed the 
        Small Business Administration to, ``re-assess its 
        rationale for making certain types of exclusions.'' 
        \10\ The GAO noted, ``Since fiscal year 1998, SBA has 
        directed FPDS to exclude certain types of contracts 
        when calculating annual small business prime contract 
        achievements.'' However, ``SBA's rational for making 
---------------------------------------------------------------------------
        these exclusions is not documented.''

    \10\ Small Business: More Transparency Needed in Prime Contract 
Goal Program, U.S. Government Accounting Office, August 2001. http://
www.gao.gov/assets/240/21854.pdf

          This report states that the reason for excluding 
        foreign sales, contracts performed outside the United 
        States, American embassies and certain actions by the 
        Federal Highway Administration is because ``small 
        business have limited chance to compete for awards.'' 
        The report also finds SBA's annual guidance on these 
---------------------------------------------------------------------------
        exclusions ``is confusing and incomplete.''

          As a small company and a lead for small companies 
        prior to starting my own firm, I have seen and 
        demonstrated that small companies are capable of 
        performing work overseas.

          There can be no justification for claiming that 
        American small businesses have limited chance to 
        compete for awards pertaining to contracts performed 
        outside of the U.S., foreign sales and American 
        embassies--nor has the SBA provided evidentiary data to 
        support this claim. Quite the contrary. In May 2015 the 
        SBA Associate Administrator of Government Contracting 
        stated: ``We couldn't find a justification to continue 
        to exclude overseas contracts. So coming in 2016, we're 
        working with the Office of Federal Procurement Policy, 
        Defense, USAID and State on including those contracts 
        in the base.''

          I ask that Congress act to require the SBA to end 
        these unwarranted exclusions from small business 
        goaling and require that any exclusions be fully 
        reported and justified in small business goaling 
        reports annually so that the entire small business 
        community might see the billions of dollars of 
        opportunity lost every year.

    The federal government is still not meeting its 
subcontracting goals. Holding large business prime contractors 
accountable for their subcontracting plans can help the 
government meet these goals.

          Subcontracting opportunities are very important to 
        small business suppliers. As part of the Small Business 
        Jobs Act of 2010, the SBA implemented rules that 
        require prime contractors to ensure small business 
        concerns are given the ``maximum practicable 
        opportunity'' to participate in the performance of the 
        work and conduct market research to identify small 
        business subcontractors and suppliers through ``all 
        reasonable means.'' \11\
---------------------------------------------------------------------------
    \11\ See Federal Acquisition Regulations, 52.219-B Utilization of 
Small Business Concerns, https://www.acquisition.gov/sites/default/
files/current/far/html/
52<INF>--</INF>217<INF>--</INF>221.html#wp1136032

          As a subcontractor, I have seen issues associated 
        with the ability to perform the work within the rates 
        defined by the large prime. A prime contractor may 
        detail a number of subcontractor positions on their 
        subcontracting plan--but, the actual dollars attributed 
        to these subcontractors for the work to be performed is 
        not executable by the subcontractors. On several 
        subcontracting plans, where my company has provided 
        resources and capabilities and where the list of small 
        businesses participating are within the framework 
        defined by the subcontractor requirements, the rates 
        provided for the subcontractor are not executable. 
        Consequently, due to the inability of the small 
        business contractors to fill these positions, the large 
        prime ultimately fills the position with their own 
---------------------------------------------------------------------------
        personnel.

          I believe it is important to place cornerstone of 
        accountability at this juncture--to assure that prime 
        contractors are adhering to ``maximum practical 
        opportunity'' requirement. Federal code states that 
        Procurement Center Representatives shall, ``be an 
        advocate for the maximum practical utilization of small 
        business concerns in Federal contracting.'' \12\ As 
        such, it is appropriate for PCR's to delay the 
        acceptance of prime contractor subcontracting plans 
        should these plans not exhibit maximum practical small 
        business participation.
---------------------------------------------------------------------------
    \12\ See 15 U.S.C. 644 Sec. 15(1)(2)(H), Awards or contracts. 
https://www.law.cornell.edu/uscode/text/15/644

          I ask Congress to require Procurement Center 
        Representatives to review all subcontracting plans to 
        make sure these plans are assuring the ``maximum 
        practical opportunity'' for small businesses to 
        participate in the performance of the work and empower 
        the PCRs to delay the acceptance of prime contractor 
        subcontracting plans should these plans not meet this 
---------------------------------------------------------------------------
        requirement.

    Thank you for this opportunity to provide testimony and 
thank you for your efforts on behalf of small business federal 
suppliers.

                                 [all]



</pre></body></html>
